           PARTICIPATION IN THE 8(A)
         PROGRAM BY FIRMS OWNED BY
         ALASKA NATIVE CORPORATIONS


                            Report Number: 9-15
                          Date Issued: July 10, 2009




                              Prepared by the
                        Office of Inspector General
                    U. S. Small Business Administration


This September 9, 2009 revised version of the Report is the same as the one publicly
released on July 10, 2009 except that we have corrected contract information on page
10 and in Appendix II.
“DRAFT




U.S. Small Business Administration
Office Inspector General                                               Memorandum
    To:    Joseph G. Jordan                                                                   Date:    July 10, 2009
           Associate Administrator, Government Contracting
           and Business Development

           Jess. B. Knox
           Associate Administrator, Office of Field Operations
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Participation in the 8(a) Program by Firms Owned by
           Alaska Native Corporations, Report No. 9-15

           This is the second report resulting from our audit of Alaska Native Corporation
           (ANC)-owned participants (ANC participants) in the 8(a) program. Our audit
           objectives were to: (1) identify 8(a) contracting trends relative to ANC-owned
           firms; (2) determine whether 8(a) contracting advantages have improved economic
           opportunities for Alaska Natives; and (3) assess SBA’s ability to effectively
           monitor ANC compliance with program rules.

           To identify 8(a) contracting trends, we reviewed Federal 8(a) obligations 1 made to
           ANC participants for fiscal years (FY) 2007 and 2008 that were reported in the
           Federal Procurement Data System (FPDS). At the time of the audit, all Federal
           procuring agencies had not yet certified to the accuracy of the FY 2008 data. We
           compared the FY 2007 and FY 2008 obligations to those reported for FY 2004 by
           the Government Accountability Office (GAO). 2 We also reviewed contract
           obligations to ANC participants reported by SBA in its Fiscal Year 2007 Report to
           the U.S. Congress on Minority Small Business and Capital Ownership
           Development to identify the firms receiving the majority of obligations. This was
           the latest available report and contained information only for active participants.

           1
               The term “obligation” refers to the annual expenditure for a particular contract, and not the total award amount.
           2
               GAO-06-399, Increased Use of Alaska Native Corporations’ Special 8(a) Provisions Calls for Tailored Oversight,
               April 2006.




                                                                  1
                                                                                   2


Because SBA does not track the volume of sole-source awards, we identified sole-
source awards for 11 companies that collectively comprised 50 percent of the total
Federal 8(a) obligations that went to ANC-owned firms participating in the
program in FY 2007. We identified these awards by analyzing information in
FPDS and SBA 8(a) files.

We interviewed officials from the parent companies of these 11 ANC participants
to determine how 8(a) revenues were benefitting Alaska Natives and the extent to
which the parent companies were involved in managing the ANC firms and
overseeing compliance with 8(a) program rules. We also reviewed profit and
dividend information in the Alaska Native Claims Settlement Act (ANCSA)
Regional Association’s Alaska Native Corporations 2006 Economic Data Report
and the Alaska Economic Performance Report for 2007—the two latest reports—
that were issued by the Governor of Alaska.

To determine the extent of oversight provided to ANC firms in the 8(a) program,
we reviewed SBA policies and regulations governing the 8(a) program and
interviewed officials in SBA’s Alaska District Office, Office of Government
Contracting and Business Development, and Office of Business Development.
We also followed up on prior Office of Inspector General (OIG) and GAO audit
recommendations related to improvements needed in SBA’s oversight of ANC
participants. Detailed information concerning our audit scope and methodology
can be found in Appendix I. We performed our audit between July 2008 and May
2009 in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

BACKGROUND

The Small Business Act (the Act) gives SBA authority to oversee and administer
the 8(a) program, which was created to help small-disadvantaged businesses
compete in the marketplace and to assist them in gaining access to Federal and
private procurement markets. To be admitted to the program, a company must
meet the eligibility criteria set out in 13 CFR Part 124, including (1) the size
criteria to be a small business established in SBA regulations, and (2) the
requirement that majority owners be economically and socially disadvantaged
individuals.

Participants in the 8(a) program receive special consideration for Federal
contracts. For example, the Small Business Act sets a goal for Federal agencies
to award 5 percent of all contracting dollars to small-disadvantaged businesses, of
which 8(a) firms are a subset. To meet this goal, procuring agencies can award
contracts to 8(a) firms competitively or on a sole-source basis up to $5.5 million
for contracts involving manufacturing and up to $3.5 million for other contracts.
                                                                                                      3



With SBA approval, program participants may also enter into joint venture
arrangements with one or more small business concerns for the purpose of
performing 8(a) contracts or with large businesses under SBA-approved
mentor/protégé agreements. In either case, under SBA regulations, the 8(a)
participant must be designated as the managing partner and receive at least
51 percent of the net profits of the venture.

Since 1986, Congress has authorized ANC-owned businesses to participate in the
8(a) program. ANCs were created by ANCSA as the mechanism for distributing
land and monetary benefits to Alaska Natives. With ANCSA’s passage, Alaska
Natives relinquished their land claims for the return promise of the establishment
of ANCs, which are state-chartered for-profit corporations, with the ability and
resources to advance the real economic and social needs of Alaska Natives. Under
ANCSA, an ANC is considered to be owned and controlled by Alaska Natives and
to be a minority and economically disadvantaged business enterprise as long as the
stock that is held by Natives and their descendants represents a majority of both
the total equity of the corporation and the total voting power of the corporation for
electing directors. If similar standards are met, subsidiary corporations, joint
ventures and partnerships of ANCs are also considered to be native-owned,
minority, and economically disadvantaged businesses. Contract awards to these
entities may be credited towards Federal goals for small and small-disadvantaged
business procurement.

By statute and/or SBA regulation, ANC participants enjoy special procurement
advantages beyond those afforded to most other 8(a) businesses. 3 These
advantages include exemptions from:

            • Limits on the number of firms that ANCs can own as long as each
              business is in a different primary industry.

            • The $5.5 million and $3.5 million competitive thresholds on the value
              of individual sole-source contracts an 8(a) firm can receive, which
              allows ANC participants to receive sole-source awards of any value.

            • The cap on sole-source awards for each 8(a) contractor that has received
              a combined total of Federal 8(a) competitive and sole-source contracts
              in excess of $100 million. 4



3
    Most of these advantages are also available to Indian tribes and Native Hawaiian Organizations.
4
    13 CFR 124.519.
                                                                                                                4


           • The requirement that 8(a) firms be managed by socially and
             economically disadvantaged owners. 5

Although the ANCSA assigned responsibility for general oversight of ANCs to the
Secretary of the Interior, under the Small Business Act 6 SBA has oversight
responsibility for contracts awarded through the 8(a) program, including those
awarded to ANC-owned firms. SBA’s Office of Business Development generally
oversees the 8(a) program, and SBA’s Alaska District Office has primary
responsibility for overseeing the ANC-owned businesses that participate in the
8(a) program. As of April 2009, there were 203 ANC participants in the 8(a)
program.

In April 2006, GAO issued a report on SBA’s oversight of ANC 8(a) participants. 7
GAO reported that SBA had not tailored its policies and oversight practices to
account for ANCs’ unique status and growth in the program, even though Agency
officials recognized that ANCs typically enter into more complex business
relationships than other 8(a) participants. The primary areas where SBA’s
oversight was cited as falling short involved its monitoring of: (1) secondary lines
of business for multiple 8(a) participants owned by a single ANC; (2) changes in
ownership of ANC participants and the holding companies that manage them; (3)
whether ANC-owned firms have a substantial unfair competitive advantage within
an industry; and (4) partnerships between ANC participants and large firms to
ensure that they are functioning as intended.

In August 2008, we reported that non-native managers of two 8(a) ANC-owned
firms had secured millions of dollars of 8(a) revenue for companies they owned
through unapproved management agreements. We also reported that SBA’s
Alaska District Office did not perform adequate reviews of ANC participants’
financial statements and lacked sufficient staff to handle the volume of contract
actions and annual reviews for the current number of ANC participants.

RESULTS IN BRIEF
Based on data reported in FPDS, Federal 8(a) obligations to current and former
ANC participants have grown by 1,386 percent since FY 2000, and have more
than tripled in recent years, from $1.1 billion in FY 2004 to $3.9 billion in FY
2008. In FY 2008, obligations to ANC participants represented 26 percent of total
8(a) dollars—an increase from about 13 percent in FY 2004—although ANC

5
    ANC-owned firms do not have to prove that they are “economically disadvantaged” because ANCSA conveys this
    status on them. Note: The information was obtained from 13 CFR 124.109 (2), 2008 Edition
6
    15 U.S.C. 637(a).
7
    GAO-06-399, Increased Use of Alaska Native Corporations’ Special 8(a) Provisions Calls for Tailored Oversight,
    April 2006.
                                                                                     5


participants constituted just 2 percent of companies in the 8(a) program and
program graduates completing previously awarded 8(a) contracts. Approximately
84 percent of the $3.9 billion in FY 2008 obligations went to current ANC
participants, and 16 percent went to ANC firms that had graduated from the
program.

Although the percentage of 8(a) obligations made to ANC firms has increased, the
majority of those obligations went to just a few ANC participants, primarily
through sole source awards. For example, 50 percent of Federal 8(a) obligations
made to current ANC participants in FY 2007 went to just 11 (or 6 percent) of the
ANC firms reported by SBA to Congress that year. Further, the ability of ANC
firms to obtain unlimited sole-source awards, which is arguably one of the most
powerful contracting advantages that ANC firms enjoy, has contributed to the
increase in such awards to ANC participants. The top 11 firms received
82 percent of their 8(a) obligations non-competitively.

Even if these ANC contracts had been awarded competitively, rather than on a
sole-source basis, it is questionable whether other 8(a) firms could have
successfully competed for them as the top 11 ANC participants had access to the
resources of their large parent companies, which gave them a competitive
advantage over other 8(a) firms. For example, the ANC-owned firms had access
to capital, lines of credit, bonding capability, and administrative resources, as well
as the management expertise of their parent companies. This may explain why
63 percent of the ANC participants received obligations in FY 2007, while only
44 percent of the non-ANC firms received obligations that year.

As reported by GAO and others, Federal agencies favor sole-sourcing awards to
ANC participants because it is a quick, easy, and legal method of meeting their
small business goals. However, such awards may not result in the best value for
the government and have been discouraged by a recent presidential memorandum
unless their use can be fully justified and safeguards put in place to protect
taxpayers.

While the playing field is not level for all 8(a) participants, the program has helped
ANCs fulfill a mission that is broader than the bottom line of the corporations—
namely, to help Alaska Natives achieve economic self-sufficiency. Unlike other
8(a) businesses, whose profits generally go to one or two disadvantaged
individuals, the profits from ANCs are shared by hundreds, and sometimes even
thousands of tribal members or Native shareholders. A large number of ANC
parent companies told us they derive most of their revenue from the 8(a) program,
and that profits from those revenues have helped to pay shareholder dividends and
fund cultural programs, employment assistance, jobs, scholarships, internships,
subsistence activities and numerous other services to the communities where their
                                                                                   6


shareholders live and work. However, because such benefits are distributed from
total ANC profits, which include non-8(a) revenue, they cannot be linked, dollar
for dollar, to 8(a) revenue.

The growth in 8(a) obligations to ANC firms and the complexities inherent in their
business relationships have challenged SBA’s ability to provide effective
oversight. For example, the number of ANC subsidiaries in the 8(a) program has
grown from 1 subsidiary owned by a single ANC in 1988 to 203 subsidiaries
owned by 58 ANCs in 2009. This has made it difficult for SBA to determine
whether more than one subsidiary of the same ANC is generating a majority of its
revenue in the same primary industry, and to monitor ownership changes to ensure
that Alaska Natives maintain their majority ownership in the participant firms.
Further, the growth in obligations has made it difficult to monitor ANC
partnerships, such as joint ventures, to ensure that the partnerships are functioning
as intended. SBA also does not have a management information system that
collects all of the information needed to adequately manage ANC participant
activity.

Prior GAO and OIG reports have assessed SBA’s oversight of ANC participants,
and recommended that the Agency revise its policies and procedures to tailor its
oversight to account for ANCs’ unique status in the program and devote adequate
resources to monitor ANC participant activity. However, in the 3 years since
GAO issued its report, SBA has implemented only 2 of the 10 recommendations in
the report. Also, while the Agency has taken steps to address staffing shortages in
the Alaska District Office that were identified by the OIG’s previous report,
current staffing levels remain insufficient to handle the growth and complexities in
ANC participant activity.

While continued contracting assistance may be needed to fulfill the economic
goals of ANCSA, increases in 8(a) awards to ANC firms may have resulted in
diminished opportunities for other 8(a) participants. For this reason, Congress
may want to consider whether ANC-owned firms should continue to be exempt
from competitive threshold limits on sole-source awards and whether such awards
should be capped. Congress may also want to consider: legislatively clarifying
that SBA must determine whether ANC-owned firms have a substantial unfair
competitive advantage before exempting them from the size affiliation rules;
requiring that ANC 8(a) firms report to SBA on how 8(a) revenues are benefiting
Alaska Natives; and revising Federal agencies’ small-disadvantaged business
procurements goals.

Further, SBA should conduct a program review to evaluate the extent to which the
growth in ANC 8(a) participation has or will adversely impact other 8(a) firms and
the overall effectiveness of the 8(a) program, and whether firms owned by ANCs
                                                                                  7


and Indian tribes should continue to be exempt from the cap on total sole-source
awards. SBA should also centrally track 8(a) awards to joint ventures involving
ANC participants and awards that are sole sourced to ANC-owned firms. Finally,
the Agency should: expedite completion of a management information system to
increase its capability to oversee ANC participant activity; finalize policies and
procedures needed to implement GAO’s recommendations; and fully staff the
Alaska District Office, as recommended by the OIG.

On July 2, 2009, the Associate Administrator for Government Contracting and
Business Development and the Associate Administrator for Field Operations
provided written comments, expressing concern with several aspects of the draft
report. The Agency’s comments generally did not state either agreement or
disagreement with the audit findings and recommendations, except that
management reported it had implemented five of GAO’s recommendations, in
contrast to the two we reported. Management also did not identify actions it
would take to respond to the audit recommendations in the report. Consequently,
we considered management’s comments to be non-responsive and have requested
that management identify what, if any, steps it will take to implement our audit
recommendations. If management is not responsive to our request or does not
plan to take action, we plan to pursue implementation of the recommendations
through the audit resolution process. Our assessment of management’s comments
is provided on page 22 of this report.

RESULTS

8(a) Obligations to ANC Participants Have Significantly Increased
Since 2000, with a Significant Percentage of the Obligations Being
Sole Sourced to a Small Percentage of Firms

Since 2000, Federal obligations to ANC participants have significantly increased,
both in value and as a percentage of total obligations to 8(a) firms. These
obligations have grown by 1,386 percent since FY 2000, and have more than
tripled in recent years, from $1.1 billion in FY 2004 to $3.9 billion in FY 2008. In
FY 2008, obligations to ANC participants represented 26 percent of total 8(a)
dollars—an increase from about 13 percent in FY 2004—even though ANC firms
comprised just 2 percent of companies currently in the 8(a) program and program
graduates completing previously awarded 8(a) contracts. Of the $3.9 billion, 84
percent went to current ANC participants, and 16 percent went to ANC firms that
had graduated from the program. These trends show that ANC participants are
receiving a disproportionate share of Federal obligations to 8(a) firms.

Further, in FY 2007, a significant percentage of 8(a) obligations to ANC
participants went to a small percentage of firms through sole-source contracts.
                                                                                                                           8


ANC-owned firms are exempt from the cap on sole-source awards that is triggered
when total competitive and sole-source 8(a) awards exceed $100 million, and
some of them would not have qualified for these awards without the exemption.
While these contracts provided an expedient way for Federal procuring agencies to
achieve their small business contracting goals, such awards may not have resulted
in the best value for the government.

A Small Percentage of Firms Received the Majority of Federal 8(a)
Obligations to ANC Participants in FY 2007

According to SBA’s FY 2007 Report to the U.S. Congress on Minority Small
Business and Capital Ownership Development, approximately 50 percent of
Federal 8(a) obligations made to ANC participants in the program that year went
to 11 (or 6 percent) of the ANC firms in the program. For example, in FY 2007,
$1 billion of the $2.2 billion obligated to current ANC participants went to 11 of
the 193 ANC firms in the program that year. The top 4 firms, which received
collectively about $600 million, accounted for less than 4 percent of the 109,210
Alaska native shareholders represented by all of the ANC participant firms.

As shown in Table 1 below, one firm accounted for nearly 20 percent of the total
Federal 8(a) obligations made to active ANC firms in FY 2007. This firm had 750
shareholders, or less than 1 percent of the total population of ANC shareholders.

                                               Table 1.
                    Top 11 ANC Participants with Federal 8(a) Obligations in FY 2007
                                                                                 Number of
                    ANC Participant                  8(a) Obligations          Shareholders
         Alutiiq International Solutions, LLC                  $206,534,000              750
         Eyak Technology, LLC                                  $159,419,000              409
         Ahtna Government Services Corp.                      $118,628,000             1,200
         Chugach Industries, Inc.                              $115,290,000            1,621a
         APM, LLC                                               $80,013,000              310
         Chenega Federal Systems, LLC                           $79,075,000              170
         SNC Telecommunications, LLC                            $69,880,000            2,783
         ASRC Management Services, Inc.                         $65,795,000            9,000
         Tyonek Manufacturing, LLC                              $62,419,000              600
         TKC Integration Services, LLC                          $56,849,000           12,000
         Bristol Design Build Services, LLC                     $53,885,000             8,000
                                                             $1,067,787,000           36,843
     a
         To avoid double counting, we reduced the 2,200 shareholders of Chugach by the 409 individuals who are
         shareholders of both Eyak and Chugach and the 170 individuals who are shareholders of both Chenega and Chugach.

     Source: SBA’s Fiscal Year 2007 Report to the U.S. Congress on Minority Small Business and Capital Ownership
             Development and data provided by ANC parent companies.
                                                                                                              9


As shown in Figure 2 below, shareholders of the top four firms were primarily
located in the southeastern territories of Alaska.

                                           Figure 2.
             Location of Top Four ANC Firms With Federal 8(a) Obligations in FY 2007




   Source: Generated by the SBA OIG based on data obtained from the ANCs and Alaska Department of Commerce.


A Large Percentage of 8(a) Funds Obligated to ANC Participants Were
Sole Sourced

In April 2006, GAO reported that over the 5-year period, from FY 2000 to FY
2004, 77 percent of 6 agencies’ obligations to ANCs were sole-sourced. Our audit
determined that since FY 2004, sole-source contracts have continued to be a major
contracting mechanism for Federal obligations to ANC participants. Although
SBA does not compile statistics on sole-source awards, our analysis of the top 11
firms that received almost 50 percent of the 8(a) obligations in FY 2007 showed
that 82 percent of their 8(a) obligations, totaling $847.9 million, were sole-
sourced.

As noted in GAO’s 2006 report, agencies have turned to ANC-owned 8(a) firms as
a quick, easy, and legal method of awarding contracts for any value, which helped
them meet their small business contracting goals. Agencies that GAO reviewed
reported that they sole-sourced awards to ANCs because they:

   • Did not have the staff to administer contracts with full and open
     competition;
                                                                                                                     10



      • Had to meet time-sensitive or urgent requirements that were over the
        competitive limits for other 8(a) firms; or

      • Could take credit in more than one small business category in achieving
        their small business goals.

In February 2008, a report by the Department of Interior OIG reaffirmed that use
of sole-source awards to ANC participants was the preferred method for obtaining
small-disadvantaged business contracting goals at Interior, which was one of the
agencies reviewed by GAO. 8 The report identified a culture at Interior that valued
expediency fueled by a preference for sole-source contracts in meeting its small
business contracting goals.

Further, unlike other 8(a) firms, ANC participants and Indian tribes are exempt
from the cap on 8(a) sole-source awards that is triggered when total 8(a) awards
reach a certain level. This cap, which is set forth in 13 CFR 124.519, precludes
8(a) firms from receiving sole-source awards once they have received any
combination of competitive and sole source 8(a) contracts totaling $100 million. 9
However, when establishing the cap, SBA exempted firms owned by ANCs and
Indian tribes from the $100 million cap. Consequently, ANC participants are not
restricted in the total amount of 8(a) sole source awards they can receive relative
to the total value of 8(a) contracts they are awarded. For example, 4 of the 11
ANC participants we reviewed received contracts valued in excess of $100 million
over just the 2-year period, FY 2007 to FY 2008. One ANC participant alone
received approximately $531 million in contracts, of which $426 million was sole
sourced. The regulatory exemption from the cap on sole-source awards allowed
this ANC-owned firm to receive all but one of these awards non-competitively. A
summary of contract awards made to the 11 ANC participants during FYs 2007
and 2008 is provided in Appendix II.

SBA issued the limits on sole-source awards in response to concerns that a small
number of participating firms were receiving a disproportionate percentage of 8(a)
contracts. In announcing the rule in a Federal Register notice, the Agency stated

8
    Report No. W-EV-MOA-0001-2007, Sole Source Contracting: Culture of Expediency Curtails Competition in
    Department of the Interior Contracting, February 2008.
9
    There are two caps on sole source awards. First, 48 CFR 19.805-1 caps individual sole-source 8(a) awards to
    $3.5 million for service contracts and $5.5 million for manufacturing contracts, unless the award has been accepted
    by SBA as a sole-source procurement on behalf of a tribally-owned or ANC-owned concern. Second, 13 CFR
    124.519 caps sole-source awards to all participants that are not owned by an ANC or Indian tribe once total 8(a)
    awards (including both sole-source and competitive awards) have reached a certain level. An 8(a) firm with a
    revenue-based size standard cannot receive additional 8(a) sole-source awards once it has obtained 8(a) awards of
    either 5 times the amount of its size standard or $100 million, whichever is less; firms with employee-based size
    standards are subject to a $100 million cap.
                                                                                 11


“the change was designed to promote the equitable distribution of 8(a) contracts to
an increased number of 8(a) participants and to foster business development on a
wider scale,” but did not explain its reasons for exempting firms owned by ANCs
and Indian tribes. As demonstrated by recent contracting trends, the exemption
extended to ANC-owned firms has had a paradoxical effect on the distribution of
8(a) awards, as ANC-owned firms are receiving a disproportionate share of 8(a)
contract awards.

Further, while sole-sourcing contracts to ANC firms may provide an expedient
means of meeting small business goals, due to the lack of competitive bidding,
such awards often do not result in the best value for the government. Rather,
competition is generally viewed as better protecting taxpayers by driving prices
down and quality up. Reports by OIGs and GAO have shown that noncompetitive
contracts have been misused, resulting in wasted taxpayer resources, poor
contractor performance, and inadequate accountability for results. This was
exemplified by a 2007 Department of Homeland Security OIG report, which found
that a $475 million sole-source border security contract to Chenega Technology
Services, an affiliate of Chenega Corporation, likely did not provide the
government the best value. The contract was awarded under the wrong NAICS
code, and 67 percent of the labor cost under the contract was subcontracted out by
Chenega, in violation of 8(a) rules.

ANC Participants Who Received the Majority of 8(a) ANC Obligations
Had Substantial Advantages over Other 8(a) Firms

The 8(a) program was originally intended to help small-disadvantaged businesses
compete in the economy by providing them with business development assistance
and Federal contracting preferences. Extending those same preferences to ANC-
owned firms, while exempting them from certain 8(a) eligibility and contracting
requirements, has provided ANC participants with substantial advantages over
other 8(a) firms. Essentially it has created a loophole through which corporate
entities that would not otherwise qualify for small business assistance can, without
competition, access contracts of unlimited value that have been set aside for small
businesses.

Generally, businesses must be small and owned and controlled by one or more
socially and economically disadvantaged individuals to be admitted to the 8(a)
program. To be considered economically disadvantaged, the owner’s ability to
compete in the free enterprise system must be impaired due to diminished capital
and credit opportunities when compared with others in the same or similar lines of
business that are not socially disadvantaged. However, ANC-owned firms do not
have to prove that they are “economically disadvantaged” because ANCSA
conveys this status on them.
                                                                                     12



SBA’s size eligibility rules also provide ANC participants with a significant
advantage over other 8(a) firms. When determining whether a company is
“small,” under SBA’s size standards, the Agency typically considers the combined
number of employees or revenues of the business concern and any other affiliated
firms. However, the Small Business Act and SBA regulations contain an
exemption for ANC participants, providing that a firm will not be considered to be
affiliated with its parent ANC, or other business concerns owned by the ANC,
unless the Administrator determines that the business concern has obtained, or is
likely to obtain, a substantial unfair competitive advantage in an industry. 10
Therefore, because the revenue and employees of the parent and affiliate
companies are not included in the ANC participant’s size determination, ANC-
owned firms that are large through affiliation are allowed to compete for 8(a)
contracts against smaller firms.

Visits to the parent companies of the 11 ANC participants who received the most
8(a) obligations in FY 2007 disclosed that they were predominantly large
businesses with significant resources at their disposal. For example, between 2007
and 2009, all 11 ANCs had reached annual revenues of over $32.5 million, and 7
of the 11 had workforces of over 1,500, which would generally qualify them as
large under SBA’s size standards. In fact, 6 of the 7 ANCs had revenues in excess
of $500 million. Interviews with the parent corporations confirmed that the ANC
participants also had access to the resources of their parents. For example, several
of the parent companies told us that they had provided their 8(a) firms with:

       • Financial assistance, such as access to capital, lines of credit, and bonding
         capability;

       • Administrative and financial reporting services, which were provided either
         directly by the parent company or through holding companies that had been
         established to oversee the ANC participants; and

       • Management expertise.

The access that certain ANC participants have to their parent corporations’
resources places other 8(a) firms at a disadvantage for awards because they must
essentially compete against the resources of the large parent corporations.
Consequently, non-ANC 8(a) firms may be losing 8(a) contract opportunities to
large ANC companies. This appears to be inconsistent with the original intent of
the 8(a) program, which is to benefit small businesses. These disadvantages,
along with the growing number of awards to ANC-owned firms, which count

10
     15 U.S.C. 636(j)(10)(J)(ii)(II); 13 CFR 124.109(c)(2)(iii).
                                                                                13


towards procuring agencies’ small business contracting goals, raise questions
about the extent to which the program is achieving its intended purpose of helping
small, disadvantaged businesses.

SBA Has Not Evaluated How ANC Contracting Trends Have Impacted
Other 8(a) Participants

Small businesses have complained to SBA and to Congress that contracting
advantages for ANC participants have curtailed their ability to compete for
Federal contracts. Despite these complaints, SBA has not evaluated how ANC
contracting trends have impacted other 8(a) firms, the overall effectiveness of the
program, or the achievement of agency small-disadvantaged business procurement
goals.

For example, annually, SBA negotiates with Federal agencies concerning their
prime contracting goals for small and disadvantaged businesses to ensure that
small businesses have the maximum practicable opportunity for Federal contracts.
In reporting goal achievement, however, awards made to 8(a) firms owned by
ANCs are counted, although these firms are technically large through affiliation
with their parent companies. Given the growth in ANC 8(a) activity, procuring
agencies may be achieving their small-disadvantaged business goals largely
through sole-source awards to ANC firms. However, SBA has not assessed the
manner in which the goals are being met to ensure that other 8(a) companies are
provided maximum opportunity to obtain 8(a) contracts.

Additionally, the growing share of 8(a) obligations going to ANC participants,
particularly in certain industry categories raises questions about how such growth
has impacted other participants and the overall effectiveness of the 8(a) program.
For example, in FY 2008, ANC participants received 66 percent of 8(a)
obligations made under the “facilities support services” NAICS code, 11 which was
the second largest industry code for 8(a) purchasing in 2008. Despite these trends
and other concerns, SBA has not conducted a study to determine whether the
increase in ANC contracting activity has harmed other 8(a) firms and overall
program performance.

Based on a 2005 Program Assessment Rating Tool (PART) evaluation of the 8(a)
program by the Office of Management and Budget (OMB), which was updated in
2008, the effectiveness of the 8(a) program was rated as adequate. An adequate
rating indicates that the program is performing, but needs to set more ambitious
goals, achieve better results, or strengthen its management practices. For example,
only 8 percent of the over 9,500 small businesses participating in the program at

11
     NAICS 561210.
                                                                                14


the end of FY 2007 were expected to get contracts. Moreover, the PART
evaluation found that SBA had not undertaken independent evaluations of the
program to measure its effectiveness and had not regularly collected timely and
credible performance information needed for such evaluations. Given the growth
in sole source awards to ANC participants, evaluations of whether such growth
has impacted other participants, as well as the overall effectiveness of the 8(a)
program, would provide SBA with critical information to help it administer the
program.

ANCs Are Heavily Reliant on the 8(a) Program to Provide Economic
Assistance to Alaska Natives

According to the Association of ANCSA Regional Corporation Presidents, ANCs
were established to build economic self-sufficiency, while addressing the social
and cultural needs of Alaska Natives. Federal contracts awarded through the 8(a)
program are one of a number of sources of revenue for ANC participants. Unlike
other 8(a) businesses, whose profits generally go to one or two individuals, the
profits from ANCs are shared by hundreds, and sometimes thousands, of tribal
members or Native shareholders.

ANCs use their profits to fulfill a mission that is broader than the bottom line of
the corporations. For example, in addition to paying dividends to shareholders,
ANC profits fund cultural programs, employment assistance, jobs, scholarships,
internships, subsistence activities, and numerous other services to the communities
where shareholders live and work. ANCs must also fulfill ANCSA obligations
that saddle them with expenses of land selection, land management, maintenance
of shareholder records, and annual audits.

While not all ANCs have generated profits in the past, in recent years the overall
financial performance of ANCs has significantly improved. According to the
ANCSA Regional Association’s 2006 Report, in 2006 total revenues for 13
regional ANCs grew 22 percent, from $4.4 billion in 2005 to $5.4 billion in 2006,
and profits increased by 75.6 percent, from $282.4 million in 2005 to
$495.9 million in 2006. Approximately $1.8 billion of the revenues earned in
2006 came from Federal 8(a) contracting preferences, which represented a 32-
percent growth in 8(a) revenue as compared to 2005. The regional corporations
paid out $104.6 million in dividends to their shareholders—a 36.8 percent increase
from the previous year. The ANCSA Regional Association’s report shows that
some of the other profits were invested in scholarships and other assistance for
Alaska Natives.

While the ANCSA Regional Association did not issue a similar report for 2007 or
2008, the Alaska Governor issued the Alaska Economic Performance Report for
                                                                                   15


2007, which showed that revenues for 12 of the 13 regional corporations totaled
$5.77 billion, with profits of $483.7 million. ANC shareholders were paid
dividends from those profits ranging from $1.00 per share to $58.55 per share.

The majority of the parent corporations of the 11 ANC participants receiving most
of the 8(a) obligations in 2007 advised us that they continue to rely heavily on the
8(a) program to fund shareholder benefits. Eight of the ANCs told us they derived
at least 50 percent or more of their revenues from the 8(a) program, with two
relying on the program for 90 percent or more of their revenues. These firms
advised that they paid out the majority of their profits in dividends to shareholders.
For example, in 2007, Bristol Bay paid $5.9 million in dividends to its 8,000
shareholders, $235,000 for social and educational programs, and $2.7 million in
shareholder wages. Another large ANC, the Northwest Alaska Native Association
(NANA), paid $35 million in dividends to its 12,000 shareholders, $33 million to
its elders’ trust fund, $8 million for social and educational programs, $1 million in
shareholder development, and $41 million in wages to shareholders who worked
for the ANC. Other ANCs, however, paid little or no dividends. While these
numbers show that ANC participation in the 8(a) program has benefited certain
Alaska Natives, dollar for dollar, it is difficult to link these benefits to revenues
earned from the 8(a) program, as they are financed from profits that have been
generated by different revenue sources.

Growth in ANC Participation Has Created Oversight Challenges for
SBA

The growth in 8(a) awards to ANC firms and the complexities inherent in their
business relationships have presented challenges for SBA in overseeing the
activities of the ANC participants in the program. As highlighted in recent GAO
and OIG reports, the practice of ANCs creating multiple subsidiaries has increased
the volume of affiliate businesses that the Agency must monitor. Additionally,
partnerships between ANCs and other individuals, as well as frequent changes in
ownership, have challenged the Agency’s ability to ensure that benefits flow to the
intended participants. Although SBA officials recognize that ANCs enter into
more complex business relationships than other 8(a) participants, it has not
tailored its oversight to account for the unique status enjoyed by ANC-owned
firms and their growth in the program, or the role that ANC parent corporations
play in ensuring compliance with 8(a) program rules.

Some of the areas where GAO and/or the OIG have found SBA’s oversight to
have fallen short include:

   • Determining whether more than one subsidiary of the same ANC is
     operating in the same primary industry category;
                                                                                   16



   • Identifying and approving changes in ownership of ANC participants and
     the holding companies that manage them;

   • Determining whether ANC firms, when entering the program or at the time
     of each contract award, have or are likely to have a substantial unfair
     competitive advantage within an industry;

   • Ensuring that partnerships between ANC participants and large firms are
     functioning as intended; and

   • Reviewing participant financial statements to determine whether they have
     entered into unapproved management agreements involving their 8(a)
     contracts.

Although SBA agreed to address most of these shortcomings in its responses to
previous GAO and OIG reports, it has made few adjustments to its oversight
activities to recognize that ANCs require special attention or that parent
companies play a significant role in managing the participant firms. For example,
in the 3 years since GAO issued its report, the Agency has implemented only 2 of
the 10 recommendations made by GAO. Further, it has not fully addressed
staffing shortages in its Alaska District Office, which is the office that has primary
responsibility for overseeing ANC participants. SBA’s responses to the
recommendations made by GAO and the OIG are discussed below.

SBA is Not Tracking Secondary Lines of Business for Multiple 8(a)
Participants Owned by a Single ANC

SBA regulations limit the number of ANC participants owned by the same parent
company that are allowed to operate in the same primary NAICS codes,
representing the same line of business. However, as reported by GAO in 2006,
one of the key practices of ANCs is the creation of multiple 8(a) subsidiaries. For
example, GAO reported that from FY 1988 to 2005, ANC 8(a) subsidiaries
increased from 1 subsidiary owned by a single ANC to 154 owned by 49 ANCs.
Today, there are 203 subsidiaries owned by 58 ANCs. In addition, we found that
many of the parent companies of the 11 ANC participants we reviewed routinely
established new 8(a) firms when existing ANC firms graduated, as shown in Table
2 below.
                                                                                               17


                                              Table 2.
             Number of Graduated and Current ANC Participants in the 8(a) Program
                              Since 2000 for the 11 ANCs Reviewed
            ANC Name              As of        2000 - 2005       2006 – 2008           As of
                                12/31/99                                            12/31/08
                                 Active     Entered Exited Entered Exited            Active
    Afognak Native Corp.            0           6         2       3         1            6
    Ahtna, Inc.                     4           2         2       3         2            5
    Arctic Slope Native Corp        5           5         2       3         4            7
    Bristol Bay Native Corp.        2           5         1      10         1           15
    Cape Fox Corporation            0           4         0       3         1            6
    Chenega Corp.                   3           4         2       2         1            6
    Chugach Alaska Corp.            3           3         4       2         2            2
    Eyak Corporation                0           3         0       0         0            3
    NANA Regional Corp.             2          13         1       7         3           18
    Sitnasauk Native Corp.          2           1         2       1         0            2
    Tyonek Native Corp.             3           5         1       2         4            5
     TOTAL                         24          51        17      36        19           75
   Source: Generated by the OIG based on data provided by SBA’s Alaska District Office.

As shown in Figure 3 below, one of the 11 ANCs had as many as 18 subsidiaries
in the 8(a) program.
                                                                                                                          18


Figure 3. Corporate Structure of NANA Regional Corporation
                                     as of 12/31/08
   NANA REGIONAL
 CORPORATION (NRC)
  NANA Development Corp.                              Subsidiaries of
  (NDC) (Holding Company)                         NANA Development Corp.

                                               1. KI Prof. Services Group, LLC      Subsidiaries of KI Professional Services
                                               2. ASCG Incorporated               1. Five Rivers Services, LLC (8a)
                                               3. DOWL, LLC                       2. KI, LLC (8a)
                                               4. NANA/Colt Engineering, LLC      3. Wolverine Services, LLC (8a)
                                               5. NANA Management Services,
                                                  LLC
                                               6. Qivliq, LLC (90% NDC) **                 Subsidiaries of Qivliq, LLC
                                               7. Courtyard by Marriott           1. TKC Communications, LLC ***
                                               8. Residence Inn by Marriott       2. Truestone, LLC (8a)
                                               9. Springhill Suites by Marriott   3. TKC Integration Services, LLC
                                           10. Nullagvik, LLC                     4. Nakuuruq Solutions, LLC (8a) **
                                           11. NANA Dynatec Mining, LLC           5. SAVA Workforce Solutions, LLC (8a) **
                                           12. NANA/Lynden Logistics, LLC         6. Synteras, (8a)
                                           13. NANA Major Drilling, LLC           7. Cazador Apparel, LLC (8a)
                                           14. NANA Oilfield Services, Inc.       8. TKC Global Solutions, LLC (8a)
                                           15. WorkSafe, Inc                      9. Portico Realty Services, LLC (8a)
                                           16. Akima Management Services,                       Subsidiaries of
                                               Inc. (80% NDC)**                        Akima Management Services, Inc.
                                           17. Red Dog Mine                       1. Akima Corporation
                                           18. Professional Services Group,
                                               LLC                                2. Akima Intra-Data, LLC (8a)
    Subsidiaries of Akmaaq,
              Inc.                         19. Akmaaq, Inc.                       3. Akima Construction Services, LLC (8a)
  1. NANA Pacific, LLC                                                            4. Akima Infrastructure Services, LLC
    (8a)***                                                                         (8a)
  2. NANA Services, LLC
    (8a)                                                                          5. Akima Facilities Management, LLC (8a)
  3. Kisaq, LLC (8a)                                                              6. Akima Logistics Services, LLC (8a)
  4. ASTS, Inc.

  ** Ownership shared with another ANC
  *** Majority owner of a joint venture firm


 Source: Generated by SBA OIG using data obtained from SBA’s Alaska District Office and Audited Financial Statements of
         NANA Regional Corporation.


The growth in subsidiaries has made it difficult for SBA to monitor compliance
with the regulatory restriction on the number of ANC subsidiaries that are certified
in the 8(a) program under the same primary NAICS codes. GAO has reported that
SBA’s oversight has fallen short in that it does not track the business industries in
which ANC subsidiaries have 8(a) contracts. Thus, GAO reported that SBA is not
ensuring that a firm’s secondary NAICS codes do not, in effect, become the
primary business line by generating the majority of revenue. This situation could
allow an ANC to have more than one 8(a) subsidiary perform most of its work
under the same primary NAICS code, which SBA regulations limit.
                                                                                19


GAO recommended that SBA collect information on ANC participants as part of
required overall 8(a) monitoring, to include tracking the primary sources of
revenue for ANC participants to ensure that multiple subsidiaries under one ANC
are not generating most of their revenue in the same primary industry. In
responding to GAO, SBA indicated that it was developing a Business
Development Management Information System (BDMIS) to electronically
manage all aspects of the 8(a) program, which would have such tracking
capability. This project was launched on July 28, 2008, but is not yet completed.
Consequently, SBA still does not have an automated means of track primary
revenue generators for ANC participants. SBA’s Director of Business
Development also told us that the Agency identifies ANC participant revenue
sources during the annual review process, but does not link those revenues back to
industry codes to establish whether an ANC’s subsidiary firms are generating most
of their revenue in the same primary industry.

SBA Is Not Always Identifying Changes in Ownership of ANC Participants
and Holding Companies

SBA regulations require that ANC participants be majority-owned by an ANC or a
wholly-owned entity of an ANC, such as a holding company. 12 ANCs must seek
approval from SBA before changing ownership of the 8(a) participant. Ownership
of the ANC subsidiaries and holding companies require constant monitoring by
SBA to ensure that Alaska Natives continue to own the required share of these
companies. However, the growth in ANC subsidiaries and creation of holding
companies has strained SBA’s ability to adequately monitor ownership changes.
According to the Director of SBA’s Alaska District Office, ownership changes
occur so frequently that her staff has had difficulty keeping up with the volume of
changes it must approve. She also told us that this activity consumes the majority
of her staff’s time, precluding them from monitoring other aspects of ANC
compliance with 8(a) rules.

The large volume of ownership change requests requiring review and approval has
also left little time for staff to monitor the ownership structure of ANC-owned
firms to identify ownership changes that have not been reported to SBA, as
required. For example, our last audit report identified an instance that had not
been reported to SBA where an owner of a former 8(a) company had purchased a
45-percent ownership interest in an ANC participant. This level of ownership was
in violation of SBA’s regulation, which restricts former 8(a) participants from
having more than a 20-percent equity ownership in a current 8(a) participant. 13
While this change of ownership was disclosed in notes to the participant’s

12
     13 CFR 124 105(i).
13
     13 CFR 124 105(h)(2).
                                                                                   20


financial statements, it went undetected because the district office did not
thoroughly review this financial information as part of its annual review of the
participant firm.

The Agency Is Not Determining Whether ANC Firms Have or Are Likely to
Have a Substantial Unfair Competitive Advantage within an Industry

GAO reported that the Agency was not complying with statutory and regulatory
requirements when evaluating the size of ANC-owned firms 14 for entrance into the
8(a) program and acceptance of 8(a) contracts. The Small Business Act states that
“in determining the size of a small business concern owned by a socially and
economically disadvantaged Indian tribe (or wholly owned business entity of each
tribe) each firm’s size shall be independently determined without regard to its
affiliation with the tribe, any entity of the tribal government, or any other business
enterprise owned by the tribe, unless the Administrator determines that one or
more such tribally owned business concerns have obtained, or are likely to obtain,
a substantial unfair competitive advantage within an industry category.” GAO
found that, while SBA had incorporated this language into its 8(a) regulations, it
was not making determinations as to whether these business concerns had
obtained, or were likely to obtain, a substantial unfair competitive advantage. In
fact, GAO found that the Agency had no policy or procedures in place to make
these determinations.

SBA officials told GAO that the statute was confusing and that they were not sure
how to implement it. Further, they did not expect that an ANC would have a
substantial unfair competitive advantage in one industry because the amount of
ANC participation in Federal contracting was so minimal. GAO reported that it
did not understand how SBA could ignore the fact that Congress had directed it to
make such determinations specifically for ANC firms. GAO also recommended
that SBA ascertain and clearly articulate in regulation how it would comply with
existing law to determine whether and when one or more ANC firms were
obtaining, or were likely to obtain, a substantial unfair competitive advantage in an
industry. In initially responding to the recommendation, SBA wrote in June 2007
that it was exploring possible regulatory changes that would address the issue of
better controlling the award of sole-source 8(a) contracts over the competitive
threshold dollar limitations to joint ventures between tribally and ANC-owned 8(a)
firms and other business concerns.

While SBA’s response would have closed a loophole that allows ANC participants
to joint venture with large businesses on sole-source contracts of unlimited value,
which potentially has given them a substantial unfair competitive advantage, it

14
     These requirements also apply to all Indian tribes.
                                                                                    21


was never implemented. Since that time, SBA has adopted a different approach,
which involves training its Business Development Specialist (BDS) staff and
Federal agencies to ensure that a previous procurement history is provided in offer
letters to facilitate such determinations. However, this approach does not appear
to address GAO’s recommendation that SBA should issue a regulation stating how
it will determine substantial unfair competitive advantage.

SBA Is Not Monitoring Partnerships between ANC Participants and Large
Firms to Ensure that They Are Functioning as Intended

As discussed previously, ANC 8(a) firms may create partnerships, such as joint
ventures and mentor-protégé arrangements, with individuals or other businesses by
entering into business agreements, which can complicate the oversight process.
SBA is required to approve partnerships between the 8(a) and other firms to
ensure the agreements will be of substantial benefit to the 8(a) concern. Under the
8(a) program, the ANC participant must manage the joint venture and receive at
least 51 percent of venture profits. SBA requires joint ventures to submit quarterly
financial statements and a final report at the end of the venture’s term so that it can
determine whether the required share of venture profits went to the ANC
participant.

GAO reported that it found indications that oversight of these partnerships may
not be adequate, particularly in the context of ANCs’ unique provisions and large
businesses wanting to take advantage of those provisions. GAO reported instances
where mentors abandoned the ANC participant when a contract was not won or
where the ANC participant believed the mentor firm exploited it for its 8(a) status.
It also reported instances where SBA did not inquire as to whether partnerships
were working as intended. SBA acknowledged that joint ventures between
mentors and their protégés may be inappropriate for 8(a) sole source contracts
above competitive thresholds set for other 8(a) firms. This acknowledgement was
based on complaints that non-8(a) firms have received substantial benefits through
the performance of large sole-source 8(a) contracts as joint venture partners with
8(a) ANC participants. Further, where the joint venture involves a large business
mentor, SBA recognized a perception that large businesses may be unduly
benefitting from the 8(a) program.

Despite these concerns, our audit revealed that neither SBA headquarters nor any
of its other district offices were adequately monitoring the performance of joint
venture contracts involving ANC participants and large businesses to ensure that
they were functioning as intended. In addition, SBA headquarters was unable to
identify the number of joint ventures that existed, including those involving ANC
participants. Similarly, SBA headquarters did not have a central tracking system
to identify which 8(a) sole source contracts involved joint venture partners. SBA
                                                                                  22


believes that BDMIS, once fully implemented, will provide the capability needed
to oversee ANC program participation.

SBA Did Not Identify Management Agreements Involving ANC Participant
8(a) Contract Revenues

Our August 2008 report on the oversight of two ANC participants highlighted
weaknesses in SBA’s review of financial information reported annually by
program participants. For example, because SBA was not carefully reviewing
participant financial statements, it did not discover that non-native managers of
two ANC firms received over $23 million out of $109 million in 8(a) revenues
through business agreements that were not disclosed or approved by SBA. The
financial statements that had been submitted to the Agency disclosed that firms
had management agreements with their non-native managers. SBA should have
detected and requested copies of these agreements to determine how they
impacted the participants’ continued eligibility in the 8(a) program and eligibility
for contract awards.

Our report questioned whether the staffing of the Alaska District Office, which has
oversight responsibility for the majority of ANC participants, was sufficient to
handle the volume of contract actions and complexity of annual reviews for the
current level of ANC participants. At the time of the audit, the office was staffed
with only two full-time and one part-time BDS to oversee over 200 8(a)
participants, of which 166 were ANC-owned firms.

In responding to our report, SBA agreed to re-evaluate staffing needs for the
Alaska District Office. Using a recent workforce analysis, SBA determined that
each BDS in the Alaska District Office should manage a workload of no more than
40 participants. According to the Director of Business Development, two new
BDS positions have been approved for the Alaska District Office which, if
implemented, should provide for more effective reviews.

CONCLUSIONS

Long-term 8(a) contracting trends show a continued and significant increase in
obligations to ANC-owned participants, many of which were made through sole-
source contracts. This growth suggests that the special advantages afforded ANC
participants may be limiting the number of non-ANC disadvantaged firms that
secure 8(a) contracts. In addition, while the 8(a) program is undeniably benefiting
Alaska Natives, our audit showed that a few ANC participants received a
disproportionate share of the 8(a) obligations. Further, because studies have
shown that sole-source contracts do not always provide the Government with the
                                                                                  23


best value, it is questionable whether ANC contracting advantages under the 8(a)
program are the most cost-effective way of assisting Alaska Natives.

Although designated by statute as disadvantaged, many ANC firms have clear
advantages over other 8(a) program participants when competing for contracts due
to their association with their large parent corporations and affiliates, which often
provide them access to capital and credit as well as management expertise.
Requiring non-ANC small businesses to compete against these ANC participants
appears to be inconsistent with the primary purpose of the 8(a) program of helping
small-disadvantaged firms develop the skills needed to compete in the American
economy. However, SBA has not undertaken a program review to determine
whether ANC participation is adversely impacting other 8(a) participants. Further,
the Agency has been slow to expand and fully staff its oversight capabilities to
address the complex nature of ANC business relationships and ANC growth in the
program.

MATTERS FOR CONGRESSIONAL CONSIDERATION

Congress may wish to consider whether:

    1. ANC-owned firms should continue to be exempt from the competitive
       threshold limits on the amount of individual sole-source awards, or
       whether there should be a statutory cap on the total amount of sole-source
       awards they may receive.

    2. The Small Business Act should be clarified to require SBA to determine
       that ANC-owned firms do not have a substantial unfair competitive
       advantage within an industry category before exempting ANC participants
       from size affiliation rules, or whether other limits should be placed on the
       affiliation rules applicable to ANC participants.

    3. ANCs should be required to submit regular reports to SBA identifying the
       percentage of its profits that are derived from 8(a) contracts, describing
       how the 8(a) share of its profits are being distributed in dividends or other
       support for Alaska Natives, and explaining how the distributed benefits
       assisted the Natives.

    4. The Small Business Act should be amended to either establish larger
       small-disadvantaged business contracting goals for procuring agencies that
       account for the growth in ANC 8(a) awards and; or establish a separate
       goal for awards to tribally-owned companies to ensure that other 8(a)
       companies are provided maximum opportunity to obtain 8(a) contracts.
                                                                                    24


RECOMMENDATIONS

We recommend that the Associate Administrator for Government Contracting and
Business Development take the appropriate steps to:

   1. Conduct a program review to evaluate whether the growth in ANC 8(a)
      obligations has adversely impacted, or will adversely impact, other 8(a)
      firms and the overall effectiveness of the 8(a) program and, if so, make
      programmatic revisions to minimize the adverse impact.

   2. As part of this program review, determine whether 8(a) firms owned by
      ANCs and tribes should continue to be exempt from the cap on total sole
      source awards in CFR 124.519 and, if not, remove the exemption from this
      regulation.

   3. Centrally track the award of 8(a) contracts to joint ventures involving ANC
      participants and the award of sole-source contracts to ANC participants.

   4. Expedite the implementation of BDMIS to ensure that the Agency has
      timely and credible performance information needed to oversee ANC
      participant activity.

   5. Finalize regulations and actions needed to fully implement GAO’s
      recommendations.

We recommend that the Associate Administrator for Field Operations take the
appropriate steps to:

   6. Fully staff the Alaska District Office to ensure that adequate oversight of
      ANC participants is provided.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On June 8, 2009, we provided a draft of the report to SBA’s Office of Government
Contracting and Business Development and Office of Field Operations for
comment. On July 2, 2009, the Associate Administrator for Government
Contracting and Business Development and the Associate Administrator for Field
Operations provided written comments, which are contained in their entirety in
Appendix III.

The Agency neither expressed agreement or disagreement with the audit findings
and recommendations, with one exception (see comment 8 below). Further,
                                                                                            25


management did not indicate whether or not it plans to implement the six audit
recommendations from this report. Therefore, we do not consider management’s
comments to be responsive to the recommendations, and have requested that the
Agency identify the actions it plans to take on each audit recommendation. If the
Agency is not responsive to our request or does not agree to take action, we plan
to seek a decision on the recommendations through the audit resolution process.

Finally, in its written comments, SBA took issue with several aspects of the report.
SBA’s comments and our evaluation of them are summarized below.

Management Comments

Comment 1 – OIG Report Repeats Findings from GAO Report

Management stated that the report is primarily repeating the GAO report from
2006, the exception being a review of contracting activities of a small sample of
11 ANCs.

OIG Response

Our audit was conducted in accordance with Government Auditing Standards,
which provide that auditors should determine whether other auditors have
completed work related to the objectives of the current audit. 15 It also provides
that prior audits conducted by others may be used to support findings or
conclusions for the current audit. Consequently, we determined that GAO’s 2006
report on Increased Use of Alaska Native Corporations’ Special 8(a) Provisions
Calls for Tailored Oversight, which provided information on SBA’s oversight of
ANC 8(a) activity, was relevant to our audit objectives. As a result, our audit
appropriately followed-up on actions taken by SBA on GAO’s recommendations.

In addition to the GAO information, the audit presents new information on recent
obligations made to ANC 8(a) firms, the number of ANC 8(a) firms receiving the
majority of obligations made to ANC participants, the percentage of obligations
made to ANC participants through sole-source contracts, and the regulatory and
statutory provisions that convey special contracting preferences on ANC
participants. The report also provides new information on ANC participant
reliance on the 8(a) program and how Alaska Natives have benefited from the
special contracting advantages afforded ANC-owned firms under the 8(a)
program.

Comments 2 and 3 – Report Does Not Discuss Contract Activity of other Program
Participant Groups or Indicate that All Had Increased Contracting Activity

15
     GAO-07-731G, Government Auditing Standards, Section 7.41 and 7.42, issued July 2007.
                                                                                   26


Management expressed concern that the report did not provide an analysis of
contract activity of the other program participant groups within the 8(a) program
or acknowledge that all groups had increased contract activity.

OIG Response

The scope of the audit was limited to ANC participants. While other participant
groups may have had increased contract activity in terms of absolute dollars
awarded, one of the key findings of this report was that the percentage of 8(a)
contracts awarded to ANC-owned participants had gone up from 13 percent in
2004 to 26 percent in 2008, a significant increase. Much of the increase was due
to the use of large, sole-source contracts to ANC-owned companies. As more of
the percentage of the small-disadvantaged business goal is attributed to ANC-
owned companies, there will be less contracting opportunities for other companies
in the 8(a) program. Because of this, we have added as another matter for
Congress to consider that it amend the small-disadvantaged business goal in the
Small Business Act by either increasing the overall goal or establishing a separate
goal for tribally-owned companies.

Comment 4 – Report Does Not Mention that Contracting Officers Must Certify
that Awards Provide Best Value or Reasonable Price

Management stated that the report did not mention that contracting officers must
certify that any award, including those made to ANCs, represent a fair and
reasonable price and/or best value to the Federal government.

OIG Response

While we agree that contracting officers must make such a certification for each
award, other OIGs and GAO have reported that noncompetitive contracts have
been misused, resulting in wasted taxpayer resources, poor contractor
performance, and inadequate accountability for results.

Comment 5 – Report Does Not Cite Any Contracts with ANC Firms that Did Not
Meet the Government’s Expectations

Management stated that not one contract awarded to an ANC was cited in the
report for not meeting the government expectation.

OIG Response

We disagree with management’s assertion. The report discusses an award made
by the Department of Homeland Security to Chenega Technology Services, which
likely did not provide the government with the best value. The contract was
                                                                                   27


awarded under the wrong NAICS code, and 67 percent of the labor cost under the
contract was subcontracted out by Chenega, in violation of 8(a) program rules.

Comment 6 – Sole-Source Awards to ANC, Tribal and Native Hawaiian
Organizations Helps Them to Compete Against Large Businesses

Management commented that the ability of ANC, Tribal and Native Hawaiian
organizations to get unlimited sole-source awards helps them compete against
large businesses.

OIG Response

We do not believe, as management suggests, that all sole-source awards to ANC
participants would have gone to large businesses had ANCs not been exempted
from the competitive thresholds on sole-source contracts, or that other 8(a) firms
were not adversely impacted. The Agency’s response is neither supported by
analysis or discussion with procuring agencies.

We believe that if such awards had been competed, other 8(a) firms may have
been able to compete for some of them (depending on the size of the award) or
may have entered into joint venture arrangements to compete for the larger
contracts. In evaluating management’s response, we contacted managers in SBA’s
district offices, who interact with small businesses daily, to get their assessment of
whether sole-source awards to ANC 8(a) firms were adversely impacting other
small businesses in their areas. Twenty district offices that service ANC
participants provided us examples where small businesses reported that they had
missed out on contracts that were ultimately awarded to ANC firms. Of note is
that several companies serviced by the Alabama, El Paso, Montana, North
Carolina, North Dakota, Oregon, Santa Ana, South Carolina, and Syracuse district
offices reported that ANC firms were getting sole-source contracts in their lines of
business for which they could have competed.

A recent legal decision by GAO also provides further evidence that 8(a) firms are
losing opportunities to ANC-owned firms. 16 On May 4, 2009, GAO rendered a
decision on a protest regarding a sole-source award made to an ANC firm. The
award was being protested by Mission Critical Solutions, an 8(a) firm located in a
historically underutilized business zone. On January 2008 the Army had awarded
a 1-year contract to Mission Critical Solutions for $3.45 million for IT support
services. Near the conclusion of the contract period, the Army decided it would
award a sole-source, follow-on contract to include a base and 2 option years.
Because the anticipated contract value exceeded the $3.5 million competitive


16
     U.S. GAO B-401057, Mission Critical Solutions, May 4, 2009.
                                                                                28


threshold, the incumbent firm could not be considered for award, which ultimately
went to an ANC firm.

Comment 7 – Tone of Report, like the Previous GAO Report, is Unsettling

Management commented that the tone of the report was unsettling because ANCs
are utilizing the statute to bring resources back to improve their Native Alaskan
communities. Current law gives Federal contracting offices the ability to use all
aspects of the 8(a) Business Development Program.

OIG Response

The report does not take issue with how ANC firms are using the profits realized
from 8(a) awards. We acknowledge that 8(a) revenue earned by ANC-owned
firms are used to improve Native Alaskan communities and that ANC profits are
distributed to hundreds, and sometimes even thousands of tribal members or
Native shareholders. We also believe that it is reasonable to suggest that if the
growth in ANC participant activity is adversely impacting other firms in the
program, Congress may want to consider whether adjustments are needed either in
procurement goals or sole-source award exemptions so that the two can co-exist in
the program and both benefit.

We believe that SBA, the Federal advocate for small businesses, should be
concerned that 8(a) firms may be adversely impacted by the growth in ANC
activity, and that it should comply with statutory requirements to evaluate whether
ANC-owned firms have a substantial unfair competitive advantage within an
industry before exempting ANC participants from size affiliation rules.

Comment 8 – The report incorrectly states that SBA has implemented only 2 of the
10 GAO recommendations

Management stated that it has taken the necessary corrective actions to implement
5 of the 10 GAO recommendations.

OIG Response

After receiving management’s comments, on July 6, 2009, we contacted GAO to
determine whether SBA had implemented additional recommendations beyond
those that we had listed in our draft report. GAO officials confirmed that only two
of their recommendations had been implemented, and that the remaining eight
recommendations were still open. GAO officials also told us that SBA had not
contacted them to close any additional recommendations.

The three additional recommendations, which we reported as open, but SBA says
it has implemented, include:
                                                                               29


   • “In regulation, specifically address SBA’s role in monitoring ownership of
     ANC holding companies that manage 8(a) operations to ensure that any
     changes in ownership are reported to SBA.”

          o Management claims it addressed this issue by issuing a Procedural
            Notice and a letter to all 8(a) participants; however neither
            document specifically addresses SBA’s role in monitoring ownership
            of ANC holding companies, and the Agency has not issued
            regulations that address this issue.

   • “Collect information on ANC’s 8(a) participation as part of required overall
     8(a) monitoring, to include tracking the primary revenue generators for 8(a)
     ANC firms to ensure that multiple subsidiaries under one ANC are not
     generating their revenue in the same primary industry.”

          o Management stated it launched a Business Development Information
            System which will have the capability to electronically manage all
            aspects of the 8(a) program. As noted in the report, the system does
            not yet have the capability to track primary revenue generators for
            8(a) firms, which is planned for a later phase of the project.

   • “Revisit regulation that requires agencies to notify SBA of all contract
     modifications and consider establishing thresholds for notification, such as
     when new NAICS codes are added to the contract or there is a certain
     percentage increase in the dollar value of the contract. Once notification
     criteria are determined, provide guidance to the agencies on when to notify
     SBA of contract modifications and scope changes.”

          o Management believes that the current regulations along with
            recently revised Partnership Agreements between SBA and the 39
            Federal agencies provide clear guidance. Also language requiring
            that agencies provide copies of contracts and modifications at the
            time of award has been placed in the revised Partnership
            Agreements. However, management has not reissued its regulations
            or established thresholds for when SBA is to be notified.


ACTIONS REQUIRED

We request that you submit written comments identifying (1) actions proposed or
taken in response to each of the six recommendations, and (2) target completion
dates for each action. We would appreciate receiving your additional comments
within 15 days of the final report date.
                                                                               30



We appreciate the courtesies and cooperation of the Associate Administrator,
Government Contracting and Business Development, Director of Business
Development and the Associate Administrator for Field Operations. If you have
any questions concerning this report, please call me at (202) 205-7203 or Riccardo
Buglisi, Director, Government Contracting and Business Development at (202)
205-7489.

cc: Joseph Loddo
    Director, Business Development
                                                                                                                 31


APPENDIX I. SCOPE AND METHODOLOGY

The audit objectives were to: (1) identify 8(a) contracting trends relative to ANC-
owned firms; (2) determine whether 8(a) contracting advantages have improved
economic opportunities for Alaska Natives; and (3) assess SBA’s ability to
effectively monitor ANC compliance with program rules.

To identify 8(a) contracting trends relative to ANC participants, we reviewed
Federal 8(a) obligations made to ANC participants for fiscal years (FY) 2007 and
2008 that were reported in the Federal Procurement Data System (FPDS).
Although prior studies have determined FPDS data to be inaccurate and
incomplete, we relied on the information as it was the official and only source for
data on Federal obligations to 8(a) firms. As a result, the obligations reported as
being made to ANC participants may be over- or understated. At the time of the
audit, all Federal procuring agencies had not yet certified to the accuracy of the
FY 2008 data. We compared the 2007 and 2008 obligations to that reported for
2004 by the Government Accountability Office (GAO). 17 We also reviewed
contract obligations to active ANC participants reported by SBA in its Fiscal Year
2007 Report to the U.S. Congress on Minority Small Business and Capital
Ownership Development to identify the firms getting the majority of obligations.
This was the latest available report and contained information on only active
participants.

Because SBA does not track the volume of sole-source awards, we identified sole-
source awards for 11 companies that collectively comprised 50 percent of the total
Federal 8(a) obligations that went to ANC–owned firms participating in the
program in FY 2007. We identified these awards by analyzing information in
FPDS and SBA 8(a) files.

To determine whether 8(a) contracting advantages have improved economic
opportunities for Alaska Native shareholders, we obtained and reviewed audited
financial statements for the top 11 ANC participants receiving the majority of the
8(a) obligations in FY 2007. We also reviewed revenue, profit, and dividend
information for the 12 regional ANCs contained in the Alaska Economic
Performance Report for 2007, that was prepared by the Governor of Alaska and
the ANCSA Regional Association’s Alaska Native Corporations 2006 Economic
Data. We interviewed SBA officials in Headquarters and the Alaska District
Office as well as various ANC representatives and reviewed previous audit reports
to identify the type of benefits that Alaska Native shareholders received from 8(a)
contract revenues. Further, we interviewed the parent companies of the top 11
17
     GAO-06-399, Increased Use of Alaska Native Corporations’ Special 8(a) Provisions Calls for Tailored Oversight,
     April 2006.
                                                                            32


ANC participants in FY 2007 to determine how the 8(a) revenues were benefiting
the ANC community and the extent to which the parent companies were involved
in managing the ANC firms and overseeing compliance with 8(a) program rules.

To determine the effectiveness of oversight on ANC firms’ compliance with 8(a)
program rules, we reviewed SBA policies and regulations governing the 8(a)
program and interviewed officials in SBA’s Alaska District Office, Office of
Government Contracting, and Office of Business Development. We also reviewed
Program Assessment Tool ratings of the 8(a) program that were prepared by the
Office of Management and Budget and followed up on prior OIG and GAO audit
recommendations related to improvements needed in SBA’s oversight of ANC
participants.

The audit was performed between July 2008 and May 2009, in accordance with
the Government Auditing Standards prescribed by the Comptroller General of the
United States.
                                                                                                                       33


APPENDIX II. 8(A) AWARDS TO ANC PARTICIPANTS THAT
RECEIVED A SIGNIFICANT SHARE OF 8(A) OBLIGATIONS MADE TO
ANC-OWNED FIRMS IN FYS 2007 AND 2008
                                   Fiscal Year 2007 (Oct. 1, 2006 - Sept. 30, 2007)
                                               Contract Award             Estimated Contract
 ANC-owned Firm:                               Number:                    Award Amount:                 Type of Contract:
                                                  W911KB-07-C-0031              $5,000,000.00                  sole source
                                                    N69450-07-C-3628            $2,000,000.00                  sole source
                                                  W912DS-07-C-0031             $10,000,000.00                  sole source
                                                  W911KB-07-C-0026              $7,000,000.00                  sole source
       Alutiiq International Solutions
                                                    SAQMMA07D0044             $375,000,000.00                  sole source
                                                    SB134107CN0030                $160,000.00                  sole source
                                                 HSCEOP-07-C-00018              $8,600,000.00                  sole source
                                                 HSSCCG-07-D-00001              $4,500,000.00                  sole source
                                                    FA4427-07-C-0108            $4,780,000.00                  sole source
                  APM, LLC
                                                  W912DR-07-C-0066             $10,000,000.00                  sole source
                                                 DOC50PAPT0701001             $120,000,000.00                    competed
                                                      DOLJ079E24786             $3,000,000.00                  sole source
        ASRC Management Services
                                                       DJA07D000030             $3,500,000.00                    competed
                                                  AG-3151-C-07-0004             $6,511,400.00                  sole source
                                                   W9132V-07-D-0001            $29,500,000.00                  sole source
                                                   N62478-07-G-3026             $3,000,000.00                    competed
         Chenega Federal Services
                                                  W909MY-07-P-0003                  $75,000.00                 sole source
                                                  HSFEEM-07-D-0002             $15,000,000.00                  sole source
                                                    N00178-07-D-2001           $12,300,000.00                  sole source
             Chugach Industries                     N65236-07-C-6286              $133,566.00                  sole source
                                                    FA4800-07-P-0057            $1,600,000.00                  sole source
              Eyak Technology                     W91RUS-07-P-0433                $448,303.00                  sole source
                                                  SPM1C1-07-D-0041             $46,846,000.00                  sole source
       SNC Telecommunication, LLC                 W911QY-07-C-0023             $20,000,000.00                  sole source
                                                  W911QY-07-C-0028             $22,000,000.00                  sole source
           Tyonek Manufacturing                   W31P4Q-07-C-0189                $223,000.00                  sole source
 Total:                                                                       $711,177,269.00




                                     Fiscal Year 2008 (Oct. 1, 2007 - Sept. 30, 2008)
                                                                                 Estimated Contract
 ANC-owned Firm:                        Contract Award Number:                   Award Amount:          Type of Contract :
                                                     N40080-08-C-3018                   $1,727,145.00          sole source
                                                          NRC-10-08-380                   $421,648.00          sole source
                                                    W911KB-08-D-0009                  $105,000,000.00            competed
  Alutiiq International Solutions
                                                     N69450-08-C-3585                     $825,000.00          sole source
                                                    W912DS-08-C-0030                   $10,000,000.00          sole source
                                                     N69450-08-C-3582                   $1,000,000.00          sole source
   Bristol Design Build Services                    W911KB-08-D-0008                  $105,000,000.00            competed
     Chenega Federal Services                       W909MY-08-C-0022                      $414,000.00          sole source
                                                    HSFECP-08-P-0001                       $88,964.00          sole source
                                                     FA3010-08-C-0009                     $785,544.22          sole source
          Eyak Technology                        08-PO-142-000152720                       $20,249.00          sole source
                                                     FA8902-08-C-1009                   $3,518,800.00          sole source
 SNC Telecommunication, LLC
                                                    W911QY-08-C-0040                    $7,800,000.00          sole source
                                                    SPM1C1-08-D-1087                   $51,155,550.00          sole source
 Total:                                                                               $287,756,900.22
Source: OIG Analysis of SBA’s Alaska and Santa Ana District Office contract files.
                                    34


APPENDIX III. MANAGEMENT COMMENTS
35
